0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of the
States of Louisiana, Arkansas, Florida, Georgia,
Indiana, Mississippi, Nebraska, South Carolina,
Tennessee, Texas, and Utah as Amici Curiae in 20137 4, CVS Pharmacy, Inc., et al. v. John Doe, One, et
al., were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 10th day of September, 2021:
Lisa Schiavo Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com

Counsel for Petitioners
Gerald Sinclair Flanagan
Consumer Watchdog
6330 San Vicente Blvd., Suite 250
Los Angeles, CA 90048
(310) 392-0522
jerry@consumerwatchdog.org

Counsel for Respondents

(800) 890.5001

8790 Governor's Hill Drive
Suite 102

www.beckergallagher.com

Cincinnati, Ohio 45249

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

Jeff Landry
Attorney General
Elizabeth B. Murrill
Solicitor General
Counsel of Record
Morgan Brungard
Assistant Solicitor General
Louisiana Dept. of Justice
1885 N. Third Street.
Baton Rouge, LA 70804
(225) 326-6766
m urrille@ag.louisiana.gov

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Notary
[seal]

~!~
k« l{Jl
,,

Jt:J:3 .I

tt:c ~ •P1$
I

